UNITED STATES SUPREME COURT
MIGUEL FIGUEROA,
Petitioner,
-againstUNITED STATES OF AMERICA,
Respondent

Malvina Nathanson, an attorney admitted to practice in the United States
Supreme Court, under penalty of perjury, affirms:
On September 9, 2020, I served the petition for a writ of certiorari, upon
the Office of the United States Attorney, Eastern District of New York, attorney
for respondent by depositing a true copy thereof enclosed in a post-paid wrapper,
in an official depository under the exclusive care and custody of the U.S. Postal
Service, addressed as set forth below.
Hon. Seth D. DuCharme
United States Attorney
Eastern District of New York
271 Cadman Plaza East
Brooklyn, New York 11201

Dated:

New York, New York
September 9, 2020
\

~~

Malvina Nathanson

